   November 13, 2006




Information Technology
Management
Management and Use of the Defense
Travel System
(D-2007-024)




                  Department of Defense
                 Office of Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-8940 (DSN 664-8940) or fax
  (703) 604-8932. Ideas and requests can also be mailed to:
                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
DFAS                  Defense Finance and Accounting Service
DISA                  Defense Information Systems Agency
DLA                   Defense Logistics Agency
DoD OIG               Department of Defense Office of Inspector General
DTMO                  Defense Travel Management Office
DTS                   Defense Travel System
GAO                   Government Accountability Office
MID 921               Management Initiative Directive 921
OMB                   Office of Management and Budget
PMO                   Program Management Office
TDY                   Temporary Duty Travel
DISTRIBUTION:

UNDER SECRETARY OF DEFENSE FOR ACQUISITION, TECHNOLOGY, AND
 LOGISTICS
UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF FINANCIAL
 OFFICER
UNDER SECRETARY OF DEFENSE FOR PERSONNEL AND READINESS
ASSISTANT SECRETARY OF DEFENSE FOR NETWORKS AND INFORMATION
 INTEGRATION
ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL MANAGEMENT
 AND COMPTROLLER)
NAVAL INSPECTOR GENERAL
AUDITOR GENERAL, DEPARTMENT OF THE ARMY
DIRECTOR, PROGRAM ANALYSIS AND EVALUATION
DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE
DIRECTOR, DEFENSE INFORMATION SYSTEMS AGENCY
DIRECTOR, DEFENSE LOGISTICS AGENCY
DIRECTOR, BUSINESS TRANSFORMATION AGENCY
               Department of Defense Office of Inspector General
Report No. D-2007-024                                               November 13, 2006
  (Project No. D2005-D000FB-0311)

            Management and Use of the Defense Travel System

                                Executive Summary

Who Should Read This Report and Why? DoD Component Comptrollers, Defense
Travel Administrators, DoD travelers, and Service and Defense agency managers should
read this report. The report discusses the Department’s effort to implement the Defense
Travel System (DTS) and transform its travel process.
Background. We performed this audit in response to a congressional request from the
Chairman, Permanent Subcommittee on Investigations, Committee on Homeland
Security and Governmental Affairs. The Chairman’s letter questioned whether DTS had
realized the previously anticipated benefits in efficiency. DoD had envisioned DTS as a
general support system designed to make business travel quicker, easier, and more
efficient by providing automated commercial and Government travel support services to
DoD travelers. In fact, DTS was expected to represent the 21st century model of
efficiency and service, featuring the best practices in industry.

DTS has evolved into a web-based, electronic, end-to-end travel management system that
leverages commercial travel management products and accelerates travel processing. On
May 28, 2002, the Assistant Secretary of Defense for Networks and Information
Integration designated DTS as a major automated information system (Acquisition
Category IAM Program). On October 18, 2004, the Deputy Secretary of Defense
designated the Under Secretary of Defense for Personnel and Readiness as the functional
proponent for travel management within the Department, to include DTS.
Results. The DTS Program Management Office, Services, and Defense agencies could
not provide documentation that substantiated all DTS, legacy system, and travel-related
data necessary to evaluate the cost-effectiveness of the DTS Program. As a result, the
Department continues to make management decisions based on unsubstantiated data and
to allocate resources to the DTS Program without the ability to measure projected
benefits (finding A).

Not all Components within the Services and Defense agencies were using DTS to support
routine temporary duty travel at sites where DTS had been deployed. Specifically, 5 of
27 sites we visited were not using DTS, and the remaining sites continued to sometimes
use legacy travel systems to process and support routine temporary duty travel. As a
result, the Department has not realized the full benefits of using DTS (finding B).

A formal reporting process and DoD-wide transformation strategy would improve DTS
management and increase its use while correcting the management control weaknesses
we identified during the audit. However, results of an upcoming DTS study required by
section 943 of Public Law 109-364, “John Warner National Defense Authorization Act
for FY 2007,” will determine how the Department implements recommendations made in
this report. (See the Finding section of the report for detailed recommendations.)

Management Comments and Audit Response. The Under Secretary of Defense
(Comptroller)/Chief Financial Officer, the Under Secretary of Defense for Personnel and
Readiness, and the Program Director, DTS Program Management Office did not
comment on an October 13, 2006, draft of this report. The Director, Indianapolis
Operations partially concurred with implementing a process to reconcile travel voucher
payment data recorded in the disbursing systems to the data recorded in e-Biz. His office
will assist the Defense Finance and Accounting Service e-Biz office to address travel
voucher payment discrepancies. Defense Finance and Accounting Service comments
were partially responsive but did not address whether a permanent process would be
implemented or how discrepancies would be resolved. And not all organizations within
the Defense Finance and Accounting Service responsible for reconciling travel voucher
data provided comments.

The Director, Program Analysis and Evaluation nonconcurred with revising the
“Unofficial Guide for the Economic Analysis of Defense Information Technology
Investments” to ensure it included a requirement for auditable data. He stated that the
Unofficial Guide has never been formally issued and that the Department already has
formal guidance on developing an economic analysis. In addition, he inferred that the
report blamed use of the Unofficial Guide for unsubstantiated DTS travel cost data. The
comments were partially responsive. The Unofficial Guide had not been officially
issued, and we clarified the report to reflect that it does not constitute official DoD
guidance. We did not mean to imply that DTS and travel-related cost data could not be
audited because the DTS PMO used the Unofficial Guide. The report recognizes the fact
that the Department has a history of being unable to validate its travel cost data.
Although DoD Instruction 7041.3, “Economic Analysis for Decision-making,”
November 7, 1995, prescribes general requirements for developing an economic analysis,
to include using auditable data, the Unofficial Guide provides detailed descriptions and
specific information that could further implement DoD Instruction 7041.3. In the past,
the Department used the Unofficial Guide as a supplemental source of instruction to
prepare an economic analysis. In light of that, we request that the Director, Program
Analysis and Evaluation reconsider his position and issue the Unofficial Guide as
implementing guidance to DoD Instruction 7041.3. A discussion of management
comments is in the Finding section of the report and the complete text is in the
Management Comments section.

We request that the Under Secretary of Defense (Comptroller)/Chief Financial Officer;
the Under Secretary of Defense for Personnel and Readiness; the Director, Program
Analysis and Evaluation; the Director, Defense Finance and Accounting Service; and the
Program Director, DTS comment on the final report by January 12, 2007.




                                            ii
Table of Contents

Executive Summary                                                            i

Background                                                                  1

Objectives                                                                  2

Review of Internal Controls                                                 2

Findings
     A. Cost Benefit Evaluation of the Defense Travel System                 3
     B. Use of the Defense Travel System                                    16

Appendixes
     A.   Scope and Methodology                                             25
     B.   Congressional Request Letter                                      28
     C.   Summary of FY 2003 through FY 2005 Lifecycle Cost Estimate Data   30
     D.   Sample of Travel Vouchers                                         33
     E.   DoD- and Service-level Defense Travel System Implementation
            Requirements                                                    37
     F.   Non-Quantifiable Benefits Resulting from the Implementation
            of the Defense Travel System                                    40
     G.   Glossary of Terms                                                 42
     H.   History of the Defense Travel System                              44
     I.   Report Distribution                                               45

Management Comments
     Program Analysis and Evaluation                                        47
     Defense Finance and Accounting Service                                 48
Background
           This audit was performed in response to a congressional request from the
           Chairman, Permanent Subcommittee on Investigations, Committee on Homeland
           Security and Governmental Affairs. See Appendix B for Senator Coleman’s
           official request and Appendix G for a glossary of terms used in the report.

           Reengineering DoD Travel. The 1993 National Performance Review identified
           travel as an area of DoD that required reengineering. The DoD Task Force to
           Reengineer Travel was established in June 1994 to conduct a comprehensive and
           systematic review of the DoD travel network using a “clean sheet of paper”
           approach. The DoD Task Force to Reengineer Travel concluded that the DoD
           travel process was fragmented, inefficient, expensive to administer, and
           occasionally impeded mission accomplishments. Therefore, DoD management
           directed the Task Force to “create a fair and equitable temporary duty travel
           (TDY) system for all DoD organizations” that will:
                    •    meet operational mission requirements,

                    •    improve service to the customers of the system, and

                    •    reduce overall cost to the Government.

           The Defense Travel System (DTS) Program Management Office (PMO) was
           established in 1995 to acquire travel services. The Department expected DTS to
           represent the 21st century model of efficiency and service, featuring the best
           practices in industry. The DTS PMO envisioned the System supporting all forms
           of business TDY through a single, paperless travel system, available to users 24
           hours a day and 7 days a week. In addition, the DTS PMO designed DTS to
           interface with DoD accounting and disbursing systems to increase the speed with
           which DoD travelers receive payment to settle vouchers. DTS is now a web-
           based, electronic, end-to-end travel management system that leverages
           commercial travel management products and accelerates travel processing. The
           Addendum to the 2003 DTS Economic Analysis, September 2, 2003, reports total
           DTS Investment and Operation and Support costs of $2.24 billion. 1
           DoD Report on DTS. On July 1, 2002, the DoD Office of Inspector General
           (DoD OIG) issued Report No. D-2002-124, “Allegations to the Defense Hotline
           on the Management of the Defense Travel System,” stating that DTS remained a
           program at high risk of not being an effective solution to streamlining the DoD
           travel management process. The report concluded that the Program was not being
           managed as a major automated information system and was being substantially
           developed without the requisite requirements; cost, performance, and schedule
           documents; and analyses needed as the foundation for assessing the effectiveness
           of the System and its return on investment. The Under Secretary of Defense
           (Comptroller)/Chief Financial Officer agreed with the intent of the report’s

1
    The $2.24 billion DTS Program costs include only DTS Investment and DTS Operation and Support costs
     for the entire lifecycle of the Program. Costs related to maintaining legacy systems and supporting the
     travel process with legacy systems are not included in this total.

                                                     1
           recommendation to improve oversight of the DTS Program by managing the
           System as an Acquisition Category IAM program. In addition, the Under
           Secretary tasked the Director, Program Analysis and Evaluation to complete a
           cost-effectiveness study to determine whether the DTS Program should continue
           or be terminated.


Objectives
           Our audit objectives were to answer congressional questions about whether DTS
           has achieved the cost savings initially envisioned. We also wanted to determine
           whether actions taken in response to a previous DoD OIG audit report achieved
           the results intended by the recommendations, that is, whether the System is used
           DoD-wide; supports mission requirements; and provides a quicker, easier, and
           more efficient means of Government travel. We reviewed the management
           control program as it relates to the overall objectives. See Appendix A for a
           discussion of the scope and methodology and prior coverage related to our
           objectives.


Review of Internal Controls
           We identified material internal control weaknesses for the DTS PMO as defined
           by DoD Instruction 5010.40, “Managers’ Internal Control (MIC) Program
           Procedures,” January 4, 2006. 2 We evaluated DTS PMO internal controls and
           management’s self-evaluation of internal controls over mission accomplishments,
           including system acquisition, system deployment, system operations, commercial
           travel management, acquisition compliance and reporting, budgeting, and
           contracting. Specifically, we reviewed the DTS PMO business processes and
           procedures used for meeting critical functionality requirements, deployment
           schedules, and updated lifecycle cost estimates. Management’s self-evaluation
           identified some of the same weaknesses identified in this report. However,
           management did not provide an adequate plan to correct those weaknesses
           specifically identified by this audit, including delays in deploying DTS and
           meeting critical functionality in planned releases.

           The Department continues to deploy DTS and fund the Program; however, it has
           done so without having a formal reporting process and overall travel management
           strategy in place to ensure it effectively accomplishes its mission to transform the
           Department’s TDY process. Recommendations A.1. and B.1., if implemented,
           should correct the weaknesses. A copy of the report will be sent to the senior
           official in charge of management controls in the DTS PMO, the Business
           Transformation Agency, and the Office of the Under Secretary of Defense for
           Personnel and Readiness.
2
    Our review of internal controls was done under the auspices of DoD Directive 5010.38, “Management
    Control (MC) Program,” August 26, 1996, and DoD Instruction 5010.40, “Management Control (MC)
    Program Procedures,” August 28, 1996. DoD Directive 5010.38 was canceled on April 3, 2006. DoD
    Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,” was reissued on
    January 4, 2006.

                                                   2
            A. Cost Benefit Evaluation of the Defense
               Travel System
            The DTS PMO, Services, and Defense agencies could not provide
            documentation that substantiated all DTS, legacy system, and travel-
            related data necessary to validate the cost-effectiveness of the DTS
            Program. The lack of underlying support necessary to develop a cost
            benefit evaluation results from the Department’s lack of a formal reporting
            process that would enable it to effectively capture, support, and validate
            all travel-related cost data. Without a validated cost benefit evaluation,
            the Department cannot fully justify allocation of funds to DTS or measure
            DTS economies and benefits against projected benefits.


Guidance for Developing a Cost Benefit Evaluation
     Cost benefit evaluations allow managers to identify requirements and concentrate
     resources in the most effective ways. Federal and DoD guidance supports
     development of cost benefit evaluations and helps managers make well-informed
     decisions whether to continue programs. The guidance identifies key information
     and elements to address in preparing a cost benefit evaluation, as well as
     documentation necessary to support a sound decision-making process. For
     instance, Office of Management and Budget (OMB) Circular A-94, “Guidelines
     and Discount Rates For Benefit-Cost Analysis of Federal Programs,” October 29,
     1992, serves as a checklist for an agency to determine whether it has considered
     and properly dealt with all the elements for sound decision-making. It also states
     that quantifiable (tangible) and non-quantifiable (intangible) benefits and costs
     should be recognized and included in the analysis.

     DoD Instruction 7041.3, “Economic Analysis for Decision-making,” November 7,
     1995, (The Instruction) implements OMB Circular A-94, provides policy, and
     identifies responsibilities and procedures for conducting a cost benefit evaluation
     to evaluate investment alternatives. The Instruction applies to the evaluation of
     decisions for the acquisition of automated information systems. The Instruction
     states that to achieve a systematic evaluation, the economic analysis process
     should identify each feasible alternative for meeting an objective and the
     alternative’s lifecycle costs and benefits. The Instruction also states that methods
     of documentation used to record and summarize cost and benefit information may
     vary between the DoD Components; however, DoD Components are encouraged
     to “standardize,” when possible, format and documentation requirements to
     ensure consistent and complete economic analysis submissions. In addition, the
     Instruction states that automated tools and data sources should be used to reduce
     paperwork and provide an audit trail of the costs and benefits identified in the
     analysis.




                                         3
OMB Circular A-94 and DoD Instruction 7041.3 address critical components
necessary to develop a cost benefit evaluation, including:

       •   rationale for completing a cost benefit evaluation, which may be
           justified if the program improves the efficiency of the Government’s
           internal operations, such as cost-saving investments;

       •   assumptions, which include rationale and a review of their strengths
           and weaknesses, that identify the underlying process used to arrive at
           estimates of future benefits and costs;

       •   alternatives that should identify additional means of achieving the
           program’s objectives;

       •   verification, through the use of studies, to determine whether
           anticipated benefits and costs have been realized and are achievable by
           periodically assessing the program’s effectiveness;
       •   sensitivity analyses that should address uncertainties of the program
           and their potential impact on the program’s results; and

       •   results and recommendations, based on the benefits and costs of the
           various alternatives, that justify the decision-maker moving forward
           with the program.

Unofficial Guide for Developing an Automated Information System
Economic Analysis. The Office of the Director, Program Analysis and
Evaluation, Office of the Secretary of Defense, developed the “Unofficial Guide
for the Economic Analysis of Defense Information Technology Investments,”
(Unofficial Guide) 1995 Version, to assist DoD Components in developing,
reviewing, and validating economic analyses for DoD automated information
system acquisition programs that are predominantly supported by commercial
off-the-shelf hardware, software, and other infrastructure. The Unofficial Guide
states that an economic analysis of automated information systems is required to
determine the best program acquisition alternative to the Government. It states
that the best alternative is one that generally meets critical mission requirements
at the lowest lifecycle cost, or provides the most advantageous return on
investment. However, the Unofficial Guide has not been officially issued by the
Department. Therefore, it is not recognized as DoD guidance.

The DTS PMO, Services, and Defense agencies used the Unofficial Guide and
OMB Circular A-94 as their basis for developing the 2003 DTS Economic
Analysis and the subsequent Addendum. In addition, the Unofficial Guide is not
consistent with OMB and DoD policy. It does not require validation of all
sources of data prior to inclusion in an economic analysis, nor does it require an
audit trail. Findings in this report reflect the inadequacies of an economic
analysis done without validating data. Therefore, because the Unofficial Guide
continues to be used within the Department, the Director, Program Analysis and
Evaluation should issue the Unofficial Guide as implementing guidance to DoD
Instruction 7041.3 for preparing a cost benefit analysis.


                                    4
Availability of Cost Data and Supporting Documentation
            The DTS PMO, Services, and Defense agencies could not provide documentation
            that substantiated all DTS Investment and Operation and Support, legacy system,
            and Status Quo 3 costs necessary for validating projected savings and the
            cost-effectiveness of the DTS Program. The Department could not provide
            invoices, contracts, Military Interdepartmental Purchase Requests, system-
            generated reports from DoD budget and accounting systems, memorandums, or
            studies that supported all FY 2003 through FY 2005 travel-related data. In
            addition, the Navy and Marine Corps stated that documentation necessary to
            support any DTS and legacy system costs for FY 1996 through FY 2002 was no
            longer available. Cost data amounts related here have been rounded for ease in
            discussion.


DTS Investment Cost Data
            The DTS “Cost Analysis Requirements Description,” November 22, 2002,
            defines DTS Investment cost data as all costs to the Government to fully
            implement DTS and sustain a fully operational status at all the required high-
            volume sites. DTS investment costs began at the inception of the Program and
            will continue through complete fielding (full operational capability).

            DTS PMO Submission. The DTS PMO provided DTS Investment cost data for
            FY 2003 through FY 2005; however, the documentation it provided did not
            substantiate the validity of all FY 2005 cost data.

            Service Submissions. The Army, Navy, Air Force, and Marine Corps provided
            DTS Investment cost data for FY 2003 through FY 2005. However, the Services
            either did not provide source documentation or the documentation they provided
            did not substantiate the costs they reported during FY 2005. For instance, the
            Army did not provide documentation and the Navy provided only partial
            documentation. The Air Force and Marine Corps provided documentation;
            however, it did not always support the cost data they reported.

            Defense Agency Submissions. DFAS, the Defense Logistics Agency (DLA),
            and the Defense Information Systems Agency (DISA) did not report any DTS
            Investment costs for FY 2003 through FY 2005. DFAS representatives initially
            stated they would take responsibility for providing cost data for all Defense
            agencies because they originally provided the same data for the 2003 DTS
            Economic Analysis. However, 3 weeks into the data call DFAS stated that it
            would only provide DFAS information and would no longer provide DTS and
            legacy system cost data for any other Defense agency. DFAS, DLA, and DISA
            have O-6 Representatives (military or civilians of various ranks or grades) to
            serve as centralized focal points for resolving DTS issues and coordinating DTS

3
    Status Quo represents the set of manual activities and partially automated systems that previously
     supported the Department’s TDY process. It also represents the cumulative cost of supporting the
     previous travel process which did not include a standard set of activities, processes, or systems.

                                                      5
    information, to include cost data. The remaining Defense agencies have not
    appointed DTS O-6 Representatives. As a result, we were unable to obtain DTS
    Investment cost data from any other Defense agency.

    DoD OIG Audit of DTS Investment Costs. We audited FY 2005 data to
    determine whether we could validate all DTS Investment cost data reported by the
    DTS PMO, Services, and DFAS, DLA, and DISA for that year. Table C1 (in
    Appendix C) shows FY 2003 through FY 2005 DTS Investment cost data
    provided by the DTS PMO, and the Services (DFAS, DLA, and DISA did not
    report any DTS Investment costs for this period). The DTS PMO and Services
    reported $58.44 million in DTS Investment costs for FY 2005; however, they
    could support only $47.31 million (81 percent) of those costs. As a result,
    $11.13 million in FY 2005 DTS Investment costs were not adequately supported.
    Support documentation the DTS PMO and Services provided for FY 2003 and
    FY 2004 was very limited. Therefore, we discontinued auditing FY 2003 and
    FY 2004 DTS Investment cost data.


DTS Operations and Support Cost Data
    The DTS PMO, Services, and Defense agencies also were unable to substantiate
    all FY 2005 DTS Operation and Support costs. The DTS “Cost Analysis
    Requirements Description” defines DTS Operation and Support costs as costs to
    manage and maintain hardware and software to sustain operations throughout the
    lifecycle of the DTS Program. DTS Operation and Support costs include all costs
    to sustain it once the Department achieves full operating capability.

    DTS PMO Submission. The DTS PMO provided DTS Operation and Support
    cost data for FY 2003 through FY 2005and documentation that substantiated all
    FY 2005 cost data.

    Service Submissions. The Army and Air Force provided DTS Operation and
    Support cost data for FY 2003 through FY 2005. The Navy and Marine Corps
    provided cost data for only FY 2004 and FY 2005. However, the Services did not
    provide source documentation, or the documentation they provided did not
    support the costs they reported during FY 2005. As with DTS Investment cost
    data, the Army did not provide DTS Operation and Support documentation, the
    Navy provided only partial documentation, and although the Air Force and
    Marine Corps provided documentation for the costs they reported during
    FY 2005, that documentation did not always substantiate the cost data they
    reported. To further cloud the issue, the Services used different types of data and
    different methodologies when calculating DTS Operation and Support costs.
            Inconsistencies in the Type of Data Reported. The Services did not
    always report DTS commercial travel office fees, voucher pay, and voucher
    computation costs even though they used DTS. The Navy O-6 Representatives
    stated those costs were generally included in legacy system costs and were not
    separated to reflect the costs resulting from DTS implementation. The Marine



                                       6
Corps, for example, did not report that it incurred system operation costs for
FY 2005. However, according to the Deputy Director of DTS PMO, all Services
incur this type of cost.

         Inconsistencies in the Methodology Used for Calculating Cost Data.
The methodology used to derive program management costs varied between the
Navy, Air Force, and Marine Corps. In an October 20, 2003, memorandum,
“Defense Travel System (DTS) Acquisition Program Baseline Comments,” the
Principal Deputy Director, Program Analysis and Evaluation stated that
inconsistent methodologies related to personnel costs, which comprise program
management costs, existed in the 2003 DTS Economic Analysis. The
memorandum further stated that those inconsistencies limited the Department’s
ability to provide a solid basis for its calculations. For example, the Air Force
program management cost element was based on the Air Force
Instruction 65-503, “Financial Management,” February 4, 1994, Table A31-1,
“Air Force Civilian Base Pay Acceleration Factors.” According to Air Force
personnel, they use periodically updated information in that table to calculate
personnel costs. This methodology, in itself, is a valid basis for determining
program management salaries. However, those rates include the cost of non-
quantifiable benefits, such as medical and leave, which were not used by the
Marine Corps when reporting data for the same cost element. Because the Marine
Corps did not include those factors in their calculations, the salary data they
provided is lower than salaries identified by the Air Force for the same grade and
rank. In addition, the Navy O-6 Representative stated that her salary was not
included in the program management cost element because she performs a variety
of tasks and is not dedicated to supporting DTS full time. The Navy, Air Force,
and Marine Corps continue using different methodologies to determine program
management costs for performing the same functions.
Defense Agency Submissions. DFAS and DLA provided DTS Operation and
Support cost data for FY 2003 through FY 2005, but DISA provided cost data for
only FY 2004 and FY 2005. However, documentation did not adequately support
the costs they reported during FY 2005. We did not receive DTS Operation and
Support cost data from any other Defense agency.

DoD OIG Audit of DTS Operation and Support Costs. We audited FY 2005
DTS Operation and Support cost data to determine whether we could validate all
cost data reported by the DTS PMO, Services, DFAS, DLA, and DISA for that
year. Table C2 (Appendix C) shows FY 2003 through FY 2005 DTS Operation
and Support cost data provided by the DTS PMO, Services, DFAS, DLA, and
DISA. The DTS PMO, Services, DFAS, DLA, and DISA reported $44.05 million
in DTS Operation and Support costs for FY 2005; however, they could only
support $7.32 million (17 percent) of those costs. Therefore, $36.73 million in
FY 2005 DTS Operation and Support costs were not adequately supported. The
supporting documentation provided by the Services, DFAS, DLA, and DISA for
FY 2003 and FY 2004 was very limited. Therefore, we discontinued auditing
FY 2003 and FY 2004 DTS Operation and Support cost data.




                                   7
Legacy System Cost Data
    The Services and Defense agencies were unable to support all reported FY 2005
    legacy system costs. The Cost Analysis Requirements Description defines legacy
    system costs (Status Quo phase out) as costs incurred to manage, support, and
    maintain day-to-day operations of the previous travel systems and processes as
    they run parallel to phasing in DTS. Legacy system costs include personnel costs,
    the cost to process and compute vouchers (voucher process and compute costs),
    any projected hardware replacements, and all maintenance for existing hardware
    and software. Those costs began prior to DTS initial operating capability at the
    start of FY 2004 and will continue through full operating capability.

    Service Submissions. The Army, Navy, Air Force, and Marine Corps provided
    legacy system cost data for FY 2003 through FY 2005. However, the Services
    did not provide adequate source documentation to support FY 2005 cost data. As
    with other travel cost data discussed here, Army provided no documentation,
    Navy provided partial documentation, and Air Force and Marine Corps
    documentation did not support amounts reported. In addition, we were unable to
    determine the accuracy of the Air Force methodology for calculating costs for
    processing and computing vouchers. For instance, the FY 2005 Air Force data
    disclosed that processing and computing vouchers cost $76 million based on Air
    Force personnel costs, DFAS billing rates, and the number of vouchers processed
    during that fiscal year. The Air Force uses the Reserve Travel System to process
    its TDY vouchers. Because the Reserve Travel System computes the voucher
    amount, DFAS would not have charged the $34 rate for computing and disbursing
    all legacy system vouchers as indicated in Air Force data. By using the higher
    voucher computation and disbursement rate, the Air Force may have overstated
    the cost it incurred to process and compute each non-DTS travel voucher
    processed during FY 2005.
    Defense Agency Submissions. DFAS and DLA provided updated lifecycle cost
    estimate data for FY 2003 through FY 2005 legacy system costs. However,
    neither Defense agency provided documentation to support the costs they reported
    during FY 2005. We did not receive legacy system cost data from DISA or any
    other Defense agency.
    DoD OIG Audit of Legacy System Costs. We audited FY 2005 legacy system
    cost data to determine whether we could validate all cost data reported in that
    year. Table C3 (Appendix C) shows FY 2003 through FY 2005 legacy system
    cost data provided by the Services, DFAS, and DLA. They reported
    $215.29 million in legacy system costs for FY 2005; however, none of those costs
    were adequately supported. Again, the supporting documentation provided by the
    Services, DFAS, and DLA for FY 2003 and FY 2004 was very limited, and so we
    discontinued auditing FY 2003 and FY 2004 legacy system cost data.


Vouchers Processed by DFAS
    Vouchers Processed. DFAS could not support the number of travel vouchers
    they processed for DoD personnel during FY 2005. It provided two sources of
                                      8
           travel voucher data: a consolidated report from e-Biz 4 and individual databases
           from each DFAS disbursing center. The two sources should have provided
           consistent data on the number of vouchers processed but differed by more than
           3 million vouchers.

                    E-Biz Accounting System. DFAS personnel stated that all travel
           vouchers they processed fall into two categories: compute and disburse
           (output 07) and disburse only (output 27). In FY 2005, the e-Biz report identified
           a total of 6,603,120 5 travel vouchers processed for DoD travelers—
           1,132,054 DTS and legacy system vouchers that DFAS computed and disbursed
           (output 07), and 5,471,066 vouchers that only needed to be disbursed (output 27).

                  DFAS Disbursing Systems. DFAS Cleveland, Columbus, Denver,
           Indianapolis, and Kansas City provided database extracts of all travel vouchers
           disbursed by their DoD disbursing systems during FY 2005. Each DFAS center
           provided a database from the disbursing system it uses. The databases recorded
           disbursements of 8,262,845 vouchers originating from legacy systems and
           1,622,450 vouchers originating from DTS in FY 2005, for a total of
           9,885,295 vouchers.
           A Persistent Issue. Problems with documentation supporting DoD travel costs
           existed before DTS and continue to exist. The Principal Deputy Director,
           Program Analysis and Evaluation, wrote in a memorandum, “Defense Travel
           System (DTS) Acquisition Program Baseline Comments,” that the Department
           needed more reliable data after reviewing the 2003 DTS Economic Analysis.
           Nearly 3 years later, the DTS PMO, Services, DFAS, DLA, and DISA were again
           unable to provide supporting documentation necessary to validate all DTS costs
           and other travel-related data. At the very least, vouchers from disbursing systems
           should be reconcilable to the e-Biz accounting system.


Formal Reporting Process
           In order to develop a cost benefit evaluation, the Department needs a formal
           reporting process that will enable it to effectively capture, support, and validate
           all travel-related cost data.
           Establishing a Formal Reporting Process. Although the DTS PMO recognized
           the need to establish a formal reporting process, that process has yet to be
           implemented. Prior to the Milestone C Decision review, the DTS PMO drafted a
           memorandum, “Identification of Component Savings from the Defense Travel
           System (DTS),” for Under Secretary of Defense (Comptroller)/Chief Financial
           Office consideration. This memorandum concluded that the 2003 DTS Economic
           Analysis does not adequately capture all the cost savings that can be achieved by
           implementing DTS. To resolve this issue, the DTS PMO asked the Under

4
    The e-Biz system was designed to implement an integrated management information system for DFAS to
     support budget formulation, resource management, financial management, funds control, and accounting
     business areas of Financial Operations and Information Services.
5
    Total does not include 90 vouchers (14 from output 07 and 76 from output 27) for non-DoD activities.

                                                     9
Secretary of Defense (Comptroller)/Chief Financial Officer to request each
Component to capture DTS potential savings in two categories:

       •   personnel and associated overhead savings (where personnel are no
           longer required to perform manual travel activities) and

       •   other real savings achieved from lower costs resulting from
           automation of travel activities.

The DTS PMO asked that all Component comptrollers provide this information
and continue to provide updated information in the form of quarterly reports.
However, according to the Deputy Program Director, DTS PMO, personnel from
the Office of the Under Secretary of Defense (Comptroller)/Chief Financial
Officer verbally indicated that this requirement was not needed and only added to
an already large list of reporting requirements. Consequently, the Department did
not implement this reporting process. The Services and Defense agencies do not
capture relevant data, including documentation necessary to support DTS and
legacy system costs.
DoD Efforts to Capture and Validate Travel Cost and Travel-Related Data.
Although the Department has attempted to capture and subsequently validate
travel costs and travel-related data on at least two occasions, neither attempt was
successful.

        1994-1995 Data Collection. The Task Force to Reengineer Travel could
not support all Departmental travel costs during their 1994 through 1995 review.
However, the “Report of the Department of Defense Task Force to Reengineer
Travel,” concludes that they could not easily identify all costs involved in the
TDY process. Specifically, the report states that the costs of administering travel
were unquantifiable, and the cost of time spent by travelers completing
authorizations and vouchers had never been officially calculated or documented.
In addition, DoD systems had not been developed or updated to enable the
Department to accurately capture and support all travel-related costs.

        2002 Data Collection. Although personnel from Program Analysis and
Evaluation attempted to develop a cost-effectiveness study and validate the 2001
DTS Economic Analysis, data was not always available to quantify DTS Program
costs. The Under Secretary of Defense (Comptroller)/Chief Financial Officer
responded to a draft of our July 1, 2002, report by tasking the Director, Program
Analysis and Evaluation to complete a cost-effectiveness study. The Under
Secretary stated that the Department would use the results of the study as a basis
for continuing or terminating the DTS Program. The Director, Program Analysis
and Evaluation, Office of the Secretary of Defense, conducted a review of the
DTS Program and issued a report on December 17, 2002, “Defense Travel System
Cost Effectiveness Review.” The report says the Department did not capture
travel costs necessary to validate program savings. As a result, the report
concluded that DTS may not be the most cost-effective solution to reengineering
the Department’s travel process.

The Task Force to Reengineer Travel and the Director, Program Analysis and
Evaluation attempts to capture and validate travel costs and other travel-related

                                    10
           data reveal a fundamental flaw in the Department’s reporting process. Despite the
           problems disclosed during both reviews, the Department continues to not require
           the Services and Defense agencies to report quantifiable cost data. By
           establishing a formal reporting process, the Department can elicit the information
           from which to create a baseline from FY 2006 forward that will allow effective
           measurement of DTS productivity improvements and cost savings.


Ability to Measure DTS Benefits
           The Department continues to make management decisions based on non-validated
           data and allocate resources to the DTS Program without the ability to measure
           projected benefits.
           Management Decisions. The Assistant Secretary of Defense for Networks and
           Information Integration approved continuing the DTS Program in a December 24,
           2003, memorandum, “Defense Travel System Acquisition Decision
           Memorandum,” even though cost data in the 2003 DTS Economic Analysis and
           subsequent Addendum had not been validated. The DTS PMO had developed the
           2003 DTS Economic Analysis, as required by DoD Instruction 5000.2, to provide
           a basis for the Milestone C Decision review. The Director, Program Analysis and
           Evaluation; Services; and Defense agencies reviewed the decision memorandum’s
           conclusions but did not agree with them. The Principal Deputy Director, Program
           Analysis and Evaluation wrote in an October 20, 2003, memorandum that the
           2003 DTS Economic Analysis did not provide a solid foundation for DTS
           Program costs. The Deputy Program Director, DTS PMO, said the Services
           revised the DTS PMO-developed lifecycle cost estimates and provided data they
           felt were more realistic. However, the Deputy Program Director, DTS PMO,
           stated that the DTS PMO had not ensured this information was validated prior to
           including it in the subsequent Addendum.

           Personnel from the Office of the Assistant Secretary of Defense for Networks and
           Information Integration stated that, although the Addendum to the 2003 DTS
           Economic Analysis identified Program savings, those savings did not present a
           favorable return on investment. However, personnel from the Office of the
           Assistant Secretary stated that the Assistant Secretary approved moving forward
           with the Program based primarily on non-quantifiable benefits, not the Program’s
           return on investment. See Appendix F for a list of the managerial and financial
           benefits (non-quantifiable) identified during the Milestone C Decision review.
           Continuing to Fund the DTS Program. Since the Assistant Secretary of
           Defense for Networks and Information Integration conducted the Milestone C
           Decision review, the DTS PMO, Services, DFAS, DLA, and DISA have reported
           DTS Investment and Operation and Support costs of approximately $293 million 6
           from FY 2003 through FY 2005.


6
    As of September 30, 2005, the DTS PMO updated lifecycle cost estimate data quantifies DTS Investment
    and Operation and Support costs of approximately $205 million. In addition, the Services, DFAS, DLA,
    and DISA incurred DTS Investment and Operation and Support costs of approximately $88 million.

                                                   11
    Measuring Projected Benefits. Although the 2003 DTS Economic Analysis and
    subsequent Addendum identify potential benefits of implementing DTS, the
    Department cannot effectively measure those benefits. The 2003 DTS Economic
    Analysis identified cost savings of $1.27 billion from FY 1996 (Program
    inception) through FY 2016 (end of the Program’s lifecycle). This resulted in a
    favorable 4.3 return on investment. Prior to the Milestone C Decision review, the
    Services; Defense agencies; and the Director, Program Analysis and Evaluation
    nonconcurred with the reported cost savings. The $167 million in cost savings
    identified in the Addendum indicates a less favorable 0.74 return on investment.
    However, the Addendum compensates for the reduced cost savings by focusing
    more on the non-quantifiable benefits of DTS. The Deputy Program Director,
    DTS PMO, stated that the program office has a process in place for measuring the
    results of some non-quantifiable benefits. However, with the exception of
    monitoring DTS effects on accelerating the voucher payment process and
    developing a model to monitor the number of vouchers processed at some DoD
    sites, the Department has not demonstrated its ability to effectively measure those
    projected benefits.


Conclusion
    We previously reported that DTS was at high risk of not effectively streamlining
    the Department’s travel management process. Since that report, the Department
    has continued the Program despite the lack of validated cost data supporting a
    sound decision-making process. OMB Circular A-94 and DoD Instruction 7041.3
    require such data for making decisions and assessing the effectiveness of a
    program. The DTS PMO developed the July 2003 DTS Economic Analysis and
    subsequent Addendum without ensuring all sources of data were validated.
    During our attempt to develop a cost benefit evaluation, the Department could not
    support all FY 2003 through FY 2005 DTS and legacy system costs. Therefore,
    the Department should develop a process that requires the Services and Defense
    agencies to capture data necessary for validating, and subsequently, measuring
    whether DTS savings exist. In addition, the Department should develop a process
    that enables it to effectively measure non-quantifiable benefits supporting the
    Department’s decision-making process to continue the DTS Program. Without
    that support, the Department will not be able to measure potential savings or
    productivity improvements derived by using DTS. As a result, the program
    remains at risk of not being a cost-effective solution to transforming the
    Department’s travel management process.


Management Comments on the Finding and Audit Response
    Management Comments. The Director, Program Analysis and Evaluation
    nonconcurred with the audit report, stating that the Unofficial Guide was not
    formally released and does not constitute formal guidance when preparing
    economic analyses. The Director also states that the Department has already
    issued formal guidance on developing an economic analysis: DoD
    Directive 5000.04, “Cost Analysis Improvement Group,” November 24, 1992

                                       12
    (revised on August 16, 2006); DoD Directive 5000.4-M, “Cost Analysis
    Requirements and Procedures,” December 1992; and DoD Instruction 7041.3.
    The Director inferred that the report blames DTS PMO’s use of the Unofficial
    Guide for unsubstantiated cost data and says that revising the Unofficial Guide
    would result in FY 2003 through FY 2005 auditable cost estimate data.

    Audit Response. We agree that the Unofficial Guide has not been officially
    issued by the Department and that DoD Instruction 7041.3 provides general
    guidance on developing an economic analysis. DoD Directive 5000.04 and DoD
    Directive 5000.4-M also provide guidance on preparing an economic analysis;
    however, those Directives primarily provide overarching descriptions and general
    content requirements for preparing a Cost Analysis Requirements Description and
    not an actual economic analysis. Specifically, DoD Directive 5000.04 provides
    guidance on reviewing the completeness and consistency of a Cost Analysis
    Requirements Description and DoD Directive 5000.4-M provides implementing
    guidance on how to prepare and present a Cost Analysis Requirements
    Description document. We did not mean to imply that the Unofficial Guide had
    been officially issued or constituted official DoD guidance. Rather, we intended
    to demonstrate that an unofficial document that does not require auditable data
    sources was being used by the Department as a supplemental source of instruction
    for preparing an economic analysis. The Unofficial Guide provides more detailed
    descriptions of the types of cost data and the overall cost element structure than
    DoD Instruction 7041.3 describes. The Unofficial Guide also provides
    standardized terms to use to identify and classify cost elements that should be in
    an economic analysis. DoD Instruction 7041.3 does indeed require an economic
    analysis to include auditable data. However, the detailed procedures in the
    Unofficial Guide could calibrate preparation of any future automated information
    system economic analysis. Therefore, we believe that the Director should
    reconsider his position to officially issue the guide as DoD implementing
    guidance to facilitate the development of an automated information system
    economic analysis consistent with requirements for auditable data in DoD
    Instruction 7041.3.
    We also did not mean to imply that DTS and travel-related cost data could not be
    audited because the DTS PMO used the Unofficial Guide when preparing the
    2003 DTS Economic Analysis and subsequent Addendum. Nor did we mean to
    imply that by revising the Unofficial Guide and officially issuing it, the
    Department would be able to provide auditable FY 2003 through FY 2005 cost
    data. In fact, the report recognizes that the Department has a history of being
    unable to validate its travel cost data.


Recommendations, Management Comments, and Audit
  Response
    Revised Recommendation. As a result of management comments, we revised
    draft Recommendation A.4. to clarify the intent of the recommendation.

    A.1. We recommend that the Under Secretary of Defense
    (Comptroller)/Chief Financial Officer and Under Secretary of Defense for

                                       13
Personnel and Readiness jointly establish a formal reporting process in
coordination with Department Comptrollers that requires each Service and
Defense agency Comptroller to maintain detailed records of all Defense
Travel System and legacy system costs.

A.2. We recommend that the Under Secretary of Defense for Personnel and
Readiness:

        a. Develop a process that facilitates the Department’s ability to
effectively measure whether using the Defense Travel System has enabled
DoD to achieve projected benefits, both quantifiable and non-quantifiable,
cited in the September 2, 2003, Addendum to the 2003 Defense Travel
System Economic Analysis.

     b. Require all DoD Components to appoint an official within that
Component who is responsible for implementing the Defense Travel System.
A.3. We recommend that the Director, Defense Finance and Accounting
Service implement a process to ensure voucher payments recorded in the
disbursing systems can be reconciled to voucher payment data in the e-Biz
accounting system to facilitate the Department’s ability to accurately report
travel voucher payments data.

Management Comments. The Director, Indianapolis Operations, partially
concurred, stating that Travel Operations will assist the e-Biz and budget offices
in addressing discrepancies between travel claims disbursed and data recorded in
e-Biz by June 30, 2007. However, the Director, Indianapolis Operations states
that the e-Biz and budget areas have primary responsibility for this issue.

Audit Response. We consider DFAS comments partially responsive to the intent
of Recommendation A.3. Although the Director, Indianapolis Operations stated
they would assist the e-Biz and budget offices in addressing discrepancies, he did
not indicate how they would assist those offices or whether they would implement
a process to improve the Department’s ability to report travel voucher data in the
future. In addition, the office with primary responsibility for this action, based on
comments provided by the Director, Indianapolis Operations, did not respond to
the draft report. The intent of the original recommendation was for DFAS to
develop such a process to ensure that voucher payment data recorded in the
disbursing systems can be accurately reconciled to the summary information
contained in e-Biz. Therefore, we request that the office within DFAS
responsible for e-Biz also provide comments on Recommendation A.3. in
response to the final report.

A.4. We recommend that the Director, Program Analysis and Evaluation
issue the “Unofficial Guide for the Economic Analysis of Defense
Information Technology Investments,” as implementing guidance for DoD
Instruction 7041.3.




                                    14
Management Comments Required
    The Under Secretary of Defense (Comptroller)/Chief Financial Officer and the
    Under Secretary of Defense for Personnel and Readiness did not comment on a
    draft of this report. We request that they comment on the final report.




                                     15
           B. Use of the Defense Travel System
           Not all Components within the Services and Defense agencies were using
           DTS to support routine TDY at sites where DTS had been deployed. In
           fact, 5 of 27 sites we visited were not using DTS at all, and the remaining
           sites continued to sometimes use legacy systems to process and support
           routine TDY. One reason DTS was not solely used to support routine
           TDY was the Department’s lack of an overall travel management strategy
           to guide the Program in achieving the benefits identified in the Addendum
           to the 2003 DTS Economic Analysis. As a result, the Department has not
           realized the full benefits of using DTS.


Use of DTS Mandated
    On July 17, 2001, the Under Secretary of Defense (Comptroller)/Chief Financial
    Officer and the Under Secretary of Defense for Acquisition, Technology, and
    Logistics issued a memorandum, “Defense Travel System,” stating that DTS
    would be the single standard system for satisfying TDY requirements. On
    October 18, 2004, nearly 3 years later, the Deputy Secretary of Defense issued
    Management Initiative Decision 921 (MID 921), “Commercial Travel
    Management,” requiring DoD Components not to use paper-based or automated
    legacy TDY systems to process travel once DTS was fielded to them. After the
    Deputy Secretary of Defense issued MID 921, the Services issued memorandums
    mandating that their respective Components implement DTS once it was
    deployed to their sites. (See Appendix E for a list of DoD and Service-specific
    policy requirements for DTS.)


Sites Not Using DTS
    Despite DoD- and Service-level requirements to use DTS, 5 of 27 sites we visited
    were not using DTS even though the System had been deployed to them.
            Naval Air Station Pensacola Training Squadron 2 and 3. Neither
    Training Squadron 2, nor Training Squadron 3 used DTS to support TDY travel.
    Personnel from Training Squadron 2 and 3 stated that, although DTS was initially
    deployed to each of their sites in May 2004, they had not used DTS to support
    travel. Training Squadron 2 and 3 are subordinate commands of Training Wing 5.
    Personnel from Training Wing 5 stated that its Commander had issued verbal
    orders not to use DTS because of a previous experience with DTS. Specifically,
    Training Wing 5 personnel stated that the Commander was scheduled to take a
    trip and used DTS to create the authorization; however, when the Commander
    arrived at the airport, DTS had not booked the ticket. During our audit, Training
    Squadron 2 and 3 began using DTS to support routine TDY on April 17, 2006.

          Naval Air Station Mayport Aircraft Intermediate Maintenance
    Detachment. The Aircraft Intermediate Maintenance Detachment did not use
    DTS to support TDY travel. Personnel stated that, although DTS training and
                                       16
    initial deployment to the site began in February 2004, the personnel had not used
    DTS to support travel. The personnel stated that the Commander verbally
    instructed them not to implement DTS because the Commander believed the
    System malfunctioned and was inefficient.

            9th Naval Construction Regiment. The 9th Naval Construction
    Regiment did not use DTS to support TDY travel. Personnel stated that although
    DTS was initially deployed to the Joint Reserve Base in April 2005, they had not
    used it to support travel for Active Duty and Reserve personnel. They stated that
    authorizations for Active Duty personnel are processed using the Windows
    version of the Automated Travel Order System and authorizations for Reservists
    are processed using the Navy Reserve Order Writing System. All vouchers are
    manually prepared. According to the DTS PMO, the import and export function
    necessary to incorporate Navy Reserve authorizations was completed, thus
    providing a logical (direct) interface to DTS. However, according to the Navy
    Reserve Order Writing System Program Manager, the interface was yet to be
    properly tested to the satisfaction of the Navy.
            Naval Consolidated Brig. Naval Consolidated Brig personnel stated that
    although DTS was deployed to the site and they declared initial operating
    capability in May 2005, they had not used DTS to support travel. They stated that
    they continued to use a manual process for creating authorizations and vouchers
    instead of using DTS because they felt DTS did not support the use of centrally
    billed accounts. In addition, because they had a limited number of staff that had
    been issued Government credit cards, the Commander had not encouraged use of
    DTS.


Continued Use of Legacy Systems to Support TDY
    We developed a random sample of 1,632 FY 2005 authorizations and vouchers
    not processed through DTS at 26 sites. Appendix D presents a site-by-site
    breakdown of sample items reviewed and the results of those reviews. The
    number and size of each sample varied based on the universe of vouchers or
    authorizations each site stated they had processed during FY 2005. (Appendix A
    describes the methodology we used in developing each sample.)
    Of the 1,632 vouchers reviewed at 26 sites, 892 of the sample items could have
    been processed using DTS. The vouchers that could have been processed through
    DTS included: most types of local travel, invitational travel, group travel, blanket
    order travel, and routine TDY. However, some sample items relating to local
    travel could have been for a dependent or retiree seeking medical treatment and
    those individuals would not have access to DTS and, therefore, could not have
    used DTS to process the travel voucher.

    The use of legacy systems after DTS has been implemented reduces the
    Department’s ability to achieve potential cost savings from reduced DFAS fees
    charged to disburse a DTS voucher. For example, 295 of the 892 vouchers were
    Army and Defense agency vouchers that could have been processed through DTS.
    The 295 Army and Defense agency vouchers could have reduced overall travel

                                        17
           processing costs paid to DFAS by as much as $31.80 per voucher. In addition,
           the Department limits its ability to successfully achieve the projected results for
           non-quantifiable benefits. The Department will not be able to transform existing
           travel management from a paper-based process to an automated, fully integrated
           end-to-end travel and financial management system until it requires the Services
           and Defense agencies to discontinue using legacy systems.


Travel Management Strategy
           The Department lacks an overall travel management strategy to guide the
             T




           Program in achieving the benefits identified in the Addendum to the 2003 DTS
           Economic Analysis. We believe an effective strategy should provide:
                    •    an effective DoD-wide process for monitoring DTS use once the
                         System has been deployed to user sites;

                    •    procedures for holding the Services and Defense agencies accountable
                         for complying with DoD policy to implement and use DTS for routine
                         TDY by the end of FY 2006;

                    •    DTS support for all types of routine TDY and changes to travel policy;
                         and

                    •    a plan for meeting existing requirements defined in the DTS
                         Operational Requirements Document, 7 November 18, 2002, and new
                         requirements that may be added.


Accountability for Using DTS
           Monitoring DTS Use. The DTS PMO and Army do not have a uniform process
           for monitoring DTS use and, therefore; they use inconsistent data to track DTS
           use.

                    Existing Processes for Monitoring DTS Use. Although the DTS PMO
           developed a model to monitor DTS use, it does not include data for all DoD sites.
           In fact, the model only includes data for the approximately 280 Phase I and Phase
           II sites (where the DTS PMO is responsible for implementing DTS), and does not
           include data for any Phase III sites where the Services and Defense agencies are
           responsible for DTS implementation. The table illustrates internal DTS PMO
           estimated rates of as of February 2006.


7
    DoD 5000.2-R, “Mandatory Procedures for Major Defense Acquisition Programs and Major Automated
    Information System Acquisition Programs,” April 5, 2002, requires the Department to document costs
    and mission requirements in an Operational Requirements Document. The DTS Operational
    Requirements Document was designed to serve as the vehicle for documenting DTS operational
    requirements, and managing the scope of the acquisition process as changes to DoD travel policy occur.

                                                     18
             DTS PMO Rates of Use as of February 2006

  DoD Component                                   Rate of Use
  Army                                            57 percent
  Navy                                            34 percent
  Air Force                                       50 percent
  Marine Corps                                    23 percent
  Defense Logistics Agency                        69 percent
  Remaining Defense Agencies                      16 percent


As shown by the data in the table, statistics indicate that the Department, on
average, is using DTS less than half of the time to process vouchers at Phase I and
Phase II sites. Although the DTS PMO developed the model to monitor DTS use
at Phase I and Phase II sites, this model does not enable the Departments to
effectively monitor DTS use Department-wide.

The Army issued a September 24, 2004, memorandum, “Defense Travel System
(DTS) Proliferation,” stating that it planned to monitor compliance with the
requirement to use DTS. According to the Army DTS Representative, the Army
financial management community discusses Army-wide progress in meeting that
goal three times a year with representatives from the Major Army Commands.
However, updated metrics are forwarded to each Army Major Command on a
monthly basis, and if that command is not showing improvement, the command
must provide a plan of action to improve its performance in meeting the goal.
The Army included DTS as a goal in the FY 2006 Joint Reconciliation Program.
As of February 2006, the Army reported that DTS was being used 72 percent of
the time at sites where it is deployed.

        Consistency of Data Used for Monitoring DTS Use. The DTS PMO
and Army used different types of data to monitor use of DTS. The DTS PMO
used ticket count data from 2001 to develop its model, broken out by Service and
Defense agency for Phase I and Phase II sites. However, personnel from the DTS
PMO acknowledged that this information may no longer be representative of
overall Department-wide travel because it was based on data available prior to the
Global War on Terrorism. Personnel from the DTS PMO stated that since the
Global War on Terrorism began, the number of tickets issued and amount of
travel occurring, has changed. The Army uses its own methods to monitor DTS
use at all its sites where DTS has been implemented, including Phase I, Phase II,
and Phase III sites. As a result, consistent data is not being used to report DTS
use. For example, the DTS PMO results show the Army achieved a 57 percent
cumulative DTS use rate during the period July 2001 through February 2006,
while the Army statistics show that it achieved a 72 percent use rate (during
February 2006). Until DoD develops a single process that uses consistent data
and reporting periods for monitoring use of DTS, it cannot hold the Services and

                                   19
            Defense agencies accountable for not using DTS and will not have a
            comprehensive baseline for measuring progress toward achieving 100 percent use
            of DTS.

            Routine TDY Not Processed Through DTS. During site visits, we found
            several instances where FY 2005 travel that should have been processed through
            DTS was processed by legacy systems. Examples of those types of travel
            include:

                     •   Travel when an individual did not have a Government credit card,

                     •   Travel when a centrally billed account was used,

                     •   Travel resulting from the use of another activity’s line of accounting
                         (invitational travel),
                     •   Group travel,

                     •   Blanket order travel, and

                     •   Travel occurring outside the Continental United States.

            During a meeting with the Deputy Program Director, DTS PMO, on May 2, 2006,
            we discussed the various reasons sites provided for not using DTS. During that
            meeting, the Deputy Program Director reiterated that travel involving the use of a
            centrally billed account; another organization’s line of accounting; and group,
            blanket order, and invitational 8 travel could be processed using DTS. If the
            Department had a process in place to effectively monitor DTS use and the
            Services and Defense agencies were held accountable for not using DTS, it would
            prevent travel from being processed using means other than DTS.


Development of DTS Functionality
            DTS does not support all types of routine or business TDY, as required in the
            DTS Operational Requirements Document, because the DTS PMO has not
            developed all required functionality during planned releases or updates to the
            System. However, DoD management has begun reviewing not only DTS, but the
            travel process as a whole, to determine whether it is cost effective for DTS to
            support all types of TDY travel.
            Travel Supported by DTS. The DTS PMO planned to deploy DTS through an
            evolutionary acquisition approach by adding functionality to the core capabilities
            of DTS with multiple major releases. The DTS Operational Requirements
            Document states that by the completion of the last major release, 9 all routine and
8
    Effective October 1, 2004, the Joint Federal Travel Regulations, Appendix O, was updated and
     invitational travel was removed from the list of travel not supported by DTS.
9
    According to the Program Director, DTS PMO, and the Director, DTMO, the last remaining major release
    will no longer be executed as a major release, but rather as a series of updates to DTS as functionality is
    developed.
                                                      20
business TDY was supposed to be supported by DTS. However, on February 22,
2006, DFAS issued a report, “Review of the Defense Travel System,” that
identifies 24 types of routine or business TDY in the Joint Federal Travel
Regulations that were not included in scheduled releases or the final release.
Examples of those types of travel include travel for prisoners and guards, Reserve
and Guard members’ travel, and permanent duty travel.

In addition, the Department has yet to support other types of travel that were
scheduled to be supported by DTS during previous major releases in FY 2004 and
FY 2005, including travel for retirees or reservists called to active duty and travel
during emergency situations (evacuation or safe haven travel). The DTS PMO
has not ensured all functionality requirements were developed on time and
changes to travel policy have not been implemented.

Travel Functionality Requirements. The DTS PMO has not developed all
requirements nor has it addressed existing system change requests. The DTS
PMO and Director, Defense Travel Management Office (DTMO) stated that all
requirements have not been developed because of budget constraints and
cumbersome travel policies. In addition, the Department has not developed a plan
stating how and when critical functionality not met as planned by previous
releases or planned for the final release will be executed. Because the following
functionality is critical to DTS successfully supporting all business and routine
TDY, the Department should develop a plan and update it as necessary to ensure
all requirements are successfully met. This functionality includes:
       •   Reserve and National Guard travel expected to provide an interface to
           the Defense Integrated Military Human Resource System, thereby
           allowing the Services to terminate the use of legacy systems currently
           required to process Reserve and Guard travel.

       •   direct vendor reservations expected to provide a direct interface
           between travel systems and suppliers (hotels, rental car companies,
           and airlines), thereby increasing discounts from suppliers based on
           volume of use.

       •   a lodging interface expected to provide travelers a link to booking
           military quarters on-line, thereby facilitating the use of Government
           billeting and decreasing overall lodging costs within the Department.

       •   Military Entrance Processing Stations expected to provide recruits
           with the ability to arrange individual travel reservations for traveling
           to their basic training sites.

       •   permanent duty travel computation expected to provide certified
           computation of permanent duty travel entitlements for a traveler and
           all dependents.

        System Change Requests. The DTS PMO has not addressed all system
change requests that seriously impact DTS functionality. As of May 9, 2006, the
DTS PMO provided a list of 16 “priority-2” system change requests. According
to the DTS PMO, a priority-2 system change request is a serious system problem

                                    21
    that limits the user’s ability to process travel using DTS. The list of 16 priority-2
    system change requests includes unresolved issues reported as long ago as
    October 2003. Because priority-2 system change requests could prevent or limit a
    user’s ability to use DTS, the DTS PMO needs to develop a more effective
    method of managing those requests to ensure timely and prompt resolution of
    issues affecting the Department’s ability to effectively use DTS as a single system
    to support routine or business TDY.

            Program Constraints. According to the Deputy Program Director, DTS
    PMO, budget reductions have caused the Program Office to delay development of
    functionality planned for previous releases. The Director, DTMO stated that
    complicated and cumbersome travel policies also preclude DTS from supporting
    all types of routine TDY. Therefore, the Department should assess the feasibility
    of developing the remaining DTS functionality and whether supporting all types
    of routine travel is cost-effective.
    Recent Actions by DoD Management. Since MID 921 was issued in 2004,
    personnel within the Office of the Under Secretary of Defense for Personnel and
    Readiness have taken a proactive approach to managing and overseeing not only
    DTS, but the entire travel process. According to the Director, DTMO, on
    March 24, 2006, the Under Secretary of Defense for Personnel and Readiness
    briefed the newly created commercial travel vision to the Deputy Secretary of
    Defense. The Deputy Secretary of Defense approved the vision and, since then,
    the DTMO has taken steps to improve the travel management process, including
    undertaking a DTS reservation-module enhancement to make the system easier to
    use.

    However, during a meeting with the Under Secretary of Defense for Personnel
    and Readiness on May 5, 2006, we expressed concern with many underlying
    issues affecting the success of DTS. The Under Secretary indicated that he
    recognized the need to change the approach for implementing and using DTS at a
    Department-wide level and stated that his office had begun developing a new
    strategy. The Under Secretary stated that he hopes this strategy will enable the
    Department to use DTS as an effective tool for transforming travel process
    weaknesses identified in the “Report of the Department of Defense Task Force to
    Reengineer Travel.” He said changes to the travel process should not be limited
    to changes that are based solely on automation. At the direction of the Under
    Secretary of Defense for Personnel and Readiness, the Director DTMO stated that
    DTMO plans to take a look at what types of travel DTS currently supports as
    compared to all types of travel necessary to support the Department’s mission. In
    addition, the Director stated that the overall goal of the Under Secretary is to
    provide a system that people want to use, rather than requiring them to use a
    system that does not support their travel needs.


Transformation of the Department’s Travel Process
    The Department will not realize the originally anticipated cost savings benefits of
    using DTS. The Addendum to the 2003 DTS Economic Analysis reported that
    the Department could realize $167 million in cost savings by implementing DTS.

                                        22
    However, the Department could not provide supporting documentation for us to
    validate costs for even 1 year, let alone the cost savings reported in the
    Addendum. In addition, the Addendum lists financial and managerial non-
    quantifiable benefits. According to the Addendum, one such benefit is a
    reduction in manpower necessary to support travel administration. The Air Force,
    for example, stated that it planned to re-designate 375 manpower billets
    supporting travel pay services and use those billets to support other Air Force
    operations. However, as of June 2006, the Air Force has not been able to meet
    this goal because of a lack of DTS functionality, continued use of legacy systems,
    and delays in fielding DTS. Although actual taxpayer savings will not occur
    through the reassignment of personnel, the Air Force will be able to more
    effectively use limited resources to support the warfighter through its
    implementation of DTS.

    Despite the Department’s investment of approximately 10 years and more than
    $496 million, it has not taken appropriate steps to achieve and sustain travel
    process reform on a strategic, Department-wide, and integrated basis. Until the
    Department develops a travel management strategy addressing DTS support for
    all types of routine TDY, functional requirements, accountability for using the
    System, a means for monitoring Department-wide use of DTS, legacy system use,
    and a process to measure realistic benefits it could potentially achieve, DoD will
    not be able to determine whether it could achieve those benefits.


Recommendations
    Revised and Deleted Recommendations. Public Law 109-364, “John Warner
    National Defense Authorization Act for FY 2007,” was enacted on October 17,
    2006. We revised draft Recommendations B.1.a, B.1.b, and B.2 to clarify that
    action in response to these recommendations should be predicated on results of
    the DTS study required by section 943 of the law and a decision to continue the
    DTS Program. We deleted Recommendation B.1.c because the DTS study
    mandated by section 943 requires a comprehensive assessment of DTS by an
    independent entity (outside the Department) to determine the feasibility of
    separating the DTS financial infrastructure from the travel reservation process.
    The study will also determine feasibility of converting the travel reservation
    process to a fee-for-service system and making the financial infrastructure of DTS
    mandatory.
    B.1. We recommend that, after the recently legislated Defense Travel System
    study is completed and if a decision is made to continue the Defense Travel
    System, the Under Secretary of Defense for Personnel and Readiness:

           a. Develop, in coordination with the Director, Business Transformation
    Agency; the Services; and Defense agencies, a travel management strategy that
    addresses key issues affecting the successful transformation of the Department’s
    temporary duty travel process, and includes:

                   1. a plan for effectively implementing the Defense Travel System
    at the remaining Phase II and Phase III sites, and

                                       23
                 2. a single methodology for effectively and consistently
    monitoring compliance with Department and Service-specific policy.

            b. Establish, in conjunction with all DoD Components, a plan that
    addresses short- and long-term goals for the Department in achieving 100 percent
    use of the Defense Travel System for routine temporary duty travel.

    B.2. We recommend that, after the recently legislated Defense Travel System
    study is completed and if a decision is made to continue the Defense Travel
    System, the Program Director, Defense Travel System Program Management
    Office, institute a more effective and timelier process for addressing system
    change requests to improve the Department’s ability to use the System.


Management Comments Required
    The Under Secretary of Defense for Personnel and Readiness and the Program
    Director, DTS PMO did not comment on a draft of this report. We request that
    they comment on the final report.




                                      24
Appendix A. Scope and Methodology
   We performed this audit in response to a congressional request from the
   Chairman, Permanent Subcommittee on Investigations, Committee on Homeland
   Security and Governmental Affairs.

   Work Performed. We conducted a program review of DTS following generally
   accepted government auditing standards from September 26, 2005, through
   September 20, 2006, to identify whether the System is being used throughout the
   Department.

          •   We reviewed DTS PMO, Service, and Defense agency implementation
              plans to identify those sites where DTS had been deployed by the end
              of FY 2005.
          •   We developed a judgmental sample of 32 sites where DTS should
              have been implemented prior to June 1, 2005, including 5 Army sites,
              17 Navy sites, 5 Air Force sites, 2 Marine Corps sites, and 3 Defense
              agency sites.

          •   Using Audit Command Language, we developed a random sample of
              legacy system authorizations or vouchers processed during FY 2005
              (or for the applicable portion of FY 2005 if DTS initial operating
              capability was declared during FY 2005) at 26 sites visited.

   We reviewed documentation, including the 2003 DTS Economic Analysis; the
   Addendum to the 2003 DTS Economic Analysis; the DTS Cost Analysis
   Requirements Description, November 22, 2002; and the DTS Joint Reconciliation
   Document, April 7, 2003; to identify the methodology used by the Department in
   calculating previous DTS Program costs.

   We requested actual DTS Investment and Operation and Support costs, and
   legacy system costs for FY 2003 through FY 2005, projected costs for FY 2006,
   and programmed costs for FY 2007 through FY 2016. We did not request
   supporting documentation for FY 1996 through FY 2002 because we planned to
   determine whether current costs could be supported prior to reviewing underlying
   data for those older Program costs.

   We reviewed updated lifecycle cost estimates containing DTS Investment and
   Operation and Support costs, and legacy system costs that the DTS PMO, and
   Service and Defense agency DTS Representatives provided for FY 2003 through
   FY 2005. We also reviewed all source documentation provided by the DoD
   Components to determine whether their updated DTS and legacy system costs
   could be validated.

   We evaluated the management and oversight of DTS by conducting interviews
   with officials from the Offices of the Under Secretary of Defense for Acquisition,
   Technology, and Logistics; the Under Secretary of Defense (Comptroller)/Chief
   Financial Officer; the Under Secretary of Defense for Personnel and Readiness,

                                      25
the Assistant Secretary of Defense for Networks and Information Integration; the
Director, Program Analysis and Evaluation; DFAS; and the DTS PMO.

We reviewed DoD acquisition guidance and acquisition-related documentation
developed by the DTS PMO to support the Assistant Secretary of Defense for
Networks and Information Integration decision to designate the Program as an
Acquisition Category IAM major automated information system, including the
DTS Operational Requirements Document; Lifecycle Cost Estimates; DTS
Acquisition Program Baseline, December 23, 2003; DTS Test and Evaluation
Master Plan, May 28, 2003; and the Acquisition Decision Memorandum,
“Designation of Defense Travel System as a Major Automated Information
Systems Acquisition Category IAM Program.”

In addition, we reviewed DoD and Service-specific memorandums mandating the
use of DTS once deployed to a site. Specifically, we reviewed MID 921; a
Principal Deputy Assistant Secretary of the Army (Financial Management and
Comptroller) memorandum, “Defense Travel System (DTS) Proliferation,”
September 24, 2004; NAVADMIN 121/04, “DBSIGN - Defense Travel System
Deployment,” May 7, 2004; an Assistant Secretary of the Air Force (Financial
Management and Comptroller) memorandum, “Defense Travel System (DTS)
Implementation,” November 2, 2004; and MARADMIN 068/05, “Policy on
Implementation of DTS” February 15, 2005.
Scope Limitations. Although we initially identified and selected 32 sites to visit,
budgetary constraints limited visits to only 27 sites. At the Naval Air Station
Mayport Aviation Support Detachment we did not develop a sample because all
vouchers, according to personnel from the Detachment, were processed through
DTS in FY 2005.

Audit Disclosure. The DoD OIG uses DTS to support TDY and local travel
requirements, which could ultimately affect the auditors’ objectivity.

Use of Computer-Processed Data. We reviewed computer-processed data from
legacy travel and financial systems to develop samples of FY 2005 non-DTS
travel vouchers. Specifically, we reviewed computer-processed data from the
Reserve Travel System, the Integrated Automated Travel System, the Windows
version of the Automated Travel Order System, the Automated Business Service
System, the Reserve Order Writing System, the Standard Accounting and
Reporting System, the Operational Data System, the Standard Finance System,
the Defense Disbursing Analysis and Reporting System, the Commanders
Resource Information System, the Automated Fund Control and Order System,
the General Accounting and Finance System, and the Fund Administration and
Standardized Document Automation. We also reviewed data from the
Centralized Disbursing System, Automated Disbursing System, and Standard
Finance System Redesign-1 to identify the total number of travel voucher
disbursements made by DFAS during FY 2005. In addition, we reviewed data
from the Civilian Pay File and Active Duty Pay File databases, which are owned
by the Defense Manpower Data Center, in an attempt to identify the site where
each voucher originated. We did not evaluate the completeness and reliability of
the data produced by those systems, nor did we test the general and application


                                   26
      controls of each system. We did not plan to project the results of our sample
      across the Department. Not assessing computing reliability did not affect the
      conclusions of this report.

      Sample Design. We randomly selected a sample of 151 sites from military
      Services and other Defense Agencies. From this sample we judgmentally
      selected 26 sites. For each selected sample site, we selected random samples of
      travel authorizations or vouchers processed by legacy travel systems during
      FY 2005. To determine whether each voucher could have been processed using
      DTS, we reviewed the corresponding authorization to determine the type of travel
      that occurred. Appendix D details the results of the sample.

      Use of Technical Assistance. The DoD OIG Quantitative Methods Division
      assisted in developing the sampling methodology used during the audit. The DoD
      OIG Technical Assessment Division assisted in developing a methodology to do a
      cost benefit evaluation of DTS. In addition, the Technical Assessment Division
      provided assistance in reviewing updated lifecycle cost estimate data.
      Government Accountability Office (GAO) High-Risk Area. The Government
      Accountability Office has identified several high-risk areas in DoD. This report
      provides coverage of the DoD Business System Modernization and DoD
      Approach to Business Transformation high-risk areas.


Prior Coverage
      During the last 5 years, GAO and the Department of Defense Office of Inspector
      General (DoD OIG) have issued four reports that discuss DTS. Unrestricted
      GAO reports can be accessed over the Internet at http://www.gao.gov.
      Unrestricted DoD OIG reports can be accessed at
      http://www.dodig.mil/audit/reports.

GAO
      GAO Report No. GAO-06-18, “DoD Business Transformation: Defense Travel
      System Continues to Face Implementation Challenges,” January 18, 2006

      GAO Report No. GAO-04-576, “DoD Travel Cards: Control Weaknesses
      Resulted in Millions of Dollars of Improper Payments,” June 9, 2004

      GAO Report No. GAO-04-398, “DoD Travel Cards: Control Weaknesses Led to
      Millions of Dollars Wasted on Unused Airline Tickets,” March 31, 2004

DoD OIG
      DoD OIG Report No. D-2002-124, “Allegations to the Defense Hotline on the
      Management of the Defense Travel System,” July 1, 2002



                                         27
Appendix B. Congressional Request Letter




                     28
29
Appendix C. Summary of FY 2003 through
            FY 2005 Lifecycle Cost Estimate
            Data
    Table C1 identifies DTS Investment costs the DTS PMO, Services, and Defense
    agencies submitted in their lifecycle cost estimates. In addition, it supports our
    conclusion that the submissions were not adequately supported and did not
    provide a baseline to develop a cost benefit evaluation.



         Table C1. FY 2003 through FY 2005 DTS Investment Costs (in millions)

                                                  Scope of Review (FY 2005)
                  Total FY 2003        FY 2005          FY 2005            FY 2005
 DoD             through FY 2005       Reported        Supported         Unsupported
 Component        Reported Costs        Costs            Costs              Costs

 DTS PMO             $170.48            $48.20           $47.31              $    .89
 Army                $ 7.17             $ 3.64           $    0              $   3.64
 Navy                $ 6.65             $ 5.75           $    0              $   5.75
 Air Force           $ 0.16             $ .06            $    0              $    .06
 Marine              $ 1.76             $ .79            $    0              $    .79
 Corps
 DFAS                $     0            $     0          $     0             $     0
 DLA                 $     0            $     0          $     0             $     0
 DISA                $     0            $     0          $     0             $     0

 Total               $186.22            $58.44           $47.31              $11.13




                                        30
            Table C2 identifies DTS Operation and Support costs the DTS PMO, Services,
            and Defense agencies submitted in their lifecycle cost estimates. In addition, it
            illustrates that submissions were not adequately supported.



                             Table C2. FY 2003 through FY 2005 DTS
                             Operation and Support Costs (in millions)

                                                        Scope of Review (FY 2005)
                         Total FY 2003         FY 2005      FY 2005           FY 2005
    DoD                 through FY 2005        Reported    Supported        Unsupported
    Component            Reported Costs         Costs         Costs            Costs

    DTS PMO                   $ 35.00            $ .73             $ .73           $    0
    Army                      $ 25.60            $15.65            $ 0             $15.65
    Navy ∗                    $ 9.57             $ 5.60            $ 0             $ 5.60
    Air Force                 $ 29.96            $17.00            $6.59           $10.41
    Marine Corps*             $ .05              $ .04             $ 0             $ .04
    DFAS                      $ 2.45             $ 1.76            $ 0             $ 1.76
    DLA                       $ 3.81             $ 2.89            $ 0             $ 2.89
    DISA                      $ .48              $ .38             $ 0             $ .38

    Total                    $106.92             $44.05            $7.32           $36.73




∗
    The Navy and Marine Corps provided cost data for only FY 2004 and FY 2005.

                                                  31
     Table C3 identifies legacy system costs the Services and Defense agencies
     submitted in their lifecycle cost estimates. It offers further evidence that
     submissions were not adequately supported.



         Table C3. FY 2003 through FY 2005 Legacy System Costs (in millions)

                                                 Scope of Review (FY 2005)
                   Total FY 2003      FY 2005         FY 2005          FY 2005
DoD               through FY 2005     Reported       Supported       Unsupported
Component          Reported Costs      Costs            Costs            Costs

Army                  $187.81          $ 45.33            $0               $ 45.33
Navy                  $118.53          $ 40.81            $0               $ 40.81
Air Force             $373.62          $121.37            $0               $121.37
Marine Corps          $ 12.85          $ 4.35             $0               $ 4.35
DFAS                  $ 2.97           $ .72              $0               $ .72
DLA                   $ 15.04          $ 2.71             $0               $ 2.71

Totals                $710.82          $215.29            $0               $215.29




                                         32
Appendix D. Sample of Travel Vouchers
            We sampled vouchers from 18 sites that were processed during FY 2005 using
            methods other than DTS. At two sites (Fort Campbell and the 9th Naval
            Construction Regiment) our sample was based on a combination of authorizations
            and vouchers. The results of those two sites are included in Table D1.

              Table D1. Sample Results Derived from Universe of Travel Vouchers

                                                        Number of Number of
                                                          Sample    Sample
                                                        Items DTS Items DTS
                                 Period of       Sample    Could  Could Not                   Could Not
     Site                        Sample 10        Size    Process   Process                   Determine

     Army
     Fort Campbell                                   96            35              61
     Fort Dix                  April 27, 2005        19            13                              6
                                  through
                               September 30,
                                    2005
     Army National                                   95            0               0               95
     Guard Bureau
     Headquarters
     Presidio of                                     82            40              37              5
     Monterey (Defense
     Language Institute
     Foreign Language
     Center)

     Navy
     Aircraft                                        32            28              0               4
     Intermediate
     Maintenance
     Detachment
     Naval Computer and                              18            18              0               0
     Telecommunications
     Station




10
     The scope of the sample included vouchers processed by non-DTS methods during FY 2005 (October 1,
     2004 through September 30, 2005), unless otherwise noted. If noted, the sample results were based on
     the time the site achieved DTS initial operating capability through the end of FY 2005.

                                                    33
Naval Consolidated    May 20, 2005       23     11    12    0
Brig                     through
                      September 30,
                           2005
Naval Postgraduate                       93     90    0     3
School
9th Naval                                59     48    6     5
Construction
Regiment

Air Force
Altus Air Force                          94     23    67    4
Base
Cannon Air Force                         95     14    78    3
Base
Eglin Air Force       March 1, 2005      96     30    58    8
Base                     through
                      September 30,
                           2005
Ellsworth Air Force                      95     23    71    1
Base
McChord Air Force                        96     41    51    4
Base

Marine Corps
Marine Corps Air                         93     35    37    21
Station Beaufort
Marine Corps          January 1, 2005    94     63    16    15
Recruiting Depot          through
Parris Island          September 30,
                            2005

Defense Agencies
Defense Contract                         95     90    1     4
Management
Agency
Headquarters
DFAS Kansas City       May 4, 2005       24     23    0     1
                         through
                      September 30,
                           2005

Total                                   1,299   625   495   179




                                         34
            Table D2 shows the results of vouchers reviewed at 8 sites where the sample was
            based on authorizations created during FY 2005 either manually or by using a
            legacy system. In cases where the results were not clear or sufficient
            documentation was not provided, we could not determine the result of that sample
            item.



                      Table D2. Samples Derived from Travel Authorizations
                                                   Number of Number of
                                                     Sample      Sample
                                                   Items DTS Items DTS
                              Period of   Sample      Could     Could Not                     Could Not
                                     11
     Site                     Sample        Size     Process     Process                      Determine

     Army
     Fort Hood                 March 1, 2005         58            51              4               3
                                  through
                               September 30,
                                    2005

     Navy
     Center for Naval           July 5, 2005         3             2               0               1
     Engineering                  through
                               September 30,
                                    2005
     Center for Personnel       May 1, 2005          17            14              0               3
     Development                  through
                               September 30,
                                    2005
     Mine Squadron II           May 1, 2005          27            5               15              7
     Corpus Christi               through
                               September 30,
                                    2005

     Naval Criminal                                  4             2               0               2
     Investigative Services

     Training Squadron II                            81            78              2               1
     Pensacola
     Training Squadron III                           73            72              0               1
     Pensacola



11
     The scope of the sample included vouchers processed by non-DTS methods during FY 2005 (October 1,
     2004 through September 30, 2005), unless otherwise noted. If noted, the sample results were based on
     the time the site achieved DTS initial operating capability through the end of FY 2005.

                                                    35
Defense Agencies
Defense Supply     70    43    0    27
Center New
Cumberland

Total              333   267   21   45




                   36
Appendix E. DoD- and Service-level Defense Travel System
            Implementation Requirements

        Date of          Issued By              Policy Title                          Content of Policy
       Issuance

    July 17, 2001   Under Secretaries of   “Defense Travel         Requires DTS to be used as the single standard system
                    Defense                System”                 for meeting TDY requirements. In addition, the
                    (Comptroller)/Chief                            memorandum states that any savings realized by the
                    Financial Officer                              Components will be able to be maintained by that
                    (USD [C] CFO) and                              Component to apply to other priorities.
                    Acquisition,
                    Technology, and
                    Logistics

    October 18,     Deputy Secretary of    MID 921 “Commercial     Requires DoD Components not to use paper-based or
    2004            Defense                Travel Management”      automated legacy TDY systems to process travel once
                                                                   DTS is fielded to a user site. In addition, the policy
                                                                   requires DTS implementation to be completed by the
                                                                   end of FY 2006.

    September 24,   Principal Deputy       “Defense Travel         Requires each Army installation to fully proliferate
    2004            Secretary of the       System Proliferation”   DTS to all travelers within 90 to 180 days after DTS
                    Army (Financial                                achieves initial operating capability at the site. The
                    Management and                                 memorandum also states that the Army planned to
                    Comptroller)                                   monitor compliance with this memorandum by
                                                                   including DTS use as a metric in the Army FY 2005
                                                                   Joint Reconciliation Program.




                                                         37
Undated          Acting Deputy          “Deployment of the      States the Army has instructed DFAS Travel Pay
                 Assistant Secretary    Defense Travel          Services to reject any travel claims submitted that
                 of the Army            System”                 should have been processed in DTS, but were not,
                 (Financial                                     including TDY trips identified as routine business trips
                 Management and                                 and local travel.
                 Comptroller)

April 13, 2005   Assistant Secretary    “Defense Travel       States installations where DTS was deployed prior to
                 of the Army            System                FY 2005 must use DTS when filing travel claims if the
                 (Financial             Usage/Implementation” type of travel is supported by DTS.
                 Management and
                 Comptroller)

May 2004         Deputy Chief of        NAVADMIN 121/ 04,       States DTS is the standard TDY system used by the
                 Naval Operations       “DBSIGN - Defense       Department and requires all Navy activities to
                 (Fleet Readiness and   Travel System           implement DTS prior to the end of FY 2006.
                 Logistics)             Deployment”

November 2,      Assistant Secretary    “Defense Travel         States the (USD [C] CFO) has identified DTS as the
2004             of the Air Force       System                  solution for DoD travel and has mandated use of DTS
                 (Financial             Implementation”         DoD-wide by the end of FY 2006. The memorandum
                 Management and                                 also states that the Air Force is on schedule with DTS
                 Comptroller)                                   use and that business travel, local travel, and group
                                                                travel authorizations and vouchers should be processed
                                                                through DTS. Further, the memorandum states that
                                                                claims for those types of travel should no longer be
                                                                sent to the local finance office for processing.

January 12,      Director, Financial    Policy Letter FMF-      States the Under Secretary of Defense
2005             Management and         T05-02, “Defense        (Comptroller)/Chief Financial Officer mandate for full
                 Comptroller,           Travel System           deployment of DTS throughout the Department. The
                 Headquarters, Air      Implementation”         memorandum requires all Air Force Materiel
                 Force Materiel                                 Command installations and units to process business,
                 Command                                        local, and group travel authorizations and vouchers
                                                                through DTS.
                                                      38
February 15,   Deputy                 MARADMIN 068/05,    Requires Marine Corps installations, upon achieving
2005           Commandants for        “Policy on          DTS initial operating capability, to fully field DTS
               Programs and           Implementation of   within 90 days and cease using legacy travel systems
               Resources;             DTS”                to support travel that DTS is capable of supporting. In
               Manpower and                               addition, the memorandum states that Headquarters,
               Reserve Affairs; and                       Marine Corps will establish a process for monitoring
               Installations and                          compliance and tracking DTS use compared to non-
               Logistics                                  DTS use at sites where the System had been previously
                                                          deployed.




                                                 39
Appendix F. Non-Quantifiable Benefits Resulting
            from the Implementation of the
            Defense Travel System
   The non-quantifiable benefits listed below provided the primary basis for moving
   forward with the DTS Program during the Milestone C Decision review that
   occurred on October 20, 2003.

          •   transforming existing travel management from a paper-based process
              to an automated, fully integrated end-to-end travel and financial
              management system that supports TDY
          •   providing centralized and consistent management of DoD commercial
              travel office services and procurement

          •   standardizing reengineered travel business rules throughout the
              Department by enabling electronic routing and processing of all
              financial transactions

          •   supporting expedient and accurate post-travel audits by using an
              electronically accessible management information system archive

          •   permitting full and secure DoD electronic commerce by using Public
              Key Infrastructure and the Defense Electronic Business Exchange to
              transmit financial commitments and obligations to appropriate systems
              within the Department

          •   increasing personnel productivity by reducing the time spent on travel
              administration by a minimum of 40 percent

          •   reducing travel processing costs
          •   contributing to clean audit opinions by providing reliable, certified
              travel entitlement computations

          •   reducing delinquent travel card payments by enabling split
              disbursements, scheduling partial payments, automating the centrally
              billed account reconciliation process

          •   improving statutory and regulatory compliance by using automated
              compliance checks throughout the travel process

          •   accelerating voucher payments by automating the process, eliminating
              redundant data entry to financial systems, and paying disbursements
              through electronic funds transfer




                                       40
•   enhancing travel data mining by enabling electronic access to travel
    information that will support the acquisition community when
    negotiating airline, hotel, and rental car rates

•   supporting the Business Enterprise Architecture by providing an
    enterprise-level travel system that integrates security, transportation,
    and financial functions




                             41
Appendix G. Glossary of Terms
   Acquisition Category IAM Program: An automated information system, with
   program costs in excess of $32 million per year in FY 2000 constant dollars; total
   program costs in excess of $126 million in FY 2000 constant dollars, or total
   lifecycle costs in excess of $378 million in FY 2000 constant dollars, and which
   is subject to Assistant Secretary of Defense for Networks and Information
   Integration oversight.

   Automated Travel Order System: An information system used by the Navy
   and Marine Corps for managing personnel travel obligations and costs.

   Blanket Orders (Unlimited, Open, or Repeat Travel Authorization): An
   authorization issued to a traveler who regularly and frequently makes trips away
   from a permanent duty station to perform regularly assigned duties for a specific
   time period during the fiscal year.

   Centrally Billed Account: A charge card vendor account established by a
   Command to pay for official DoD travel.

   Commercial Travel Office Fees: Costs associated with compensating
   commercial travel offices for services provided in executing the travel function
   for DoD personnel.

   Deployment: An authorization that directs the movement of a single person or
   unit to support combat, peacekeeping, and disaster relief missions. Deployments
   also include orders that require a member’s participation in training exercises or
   contingency operations away from the member’s permanent duty station.

   Group Travel: A movement of two or more officials traveling from the same
   origin to the same destination as a group under the same travel authorization
   when transportation is provided by the Government.

   Invitational Travel: Authorized travel of individuals either not employed by the
   Government, or employed intermittently in the Government as consultants or
   experts. Invitational travel also includes travel for individuals serving without
   pay or when they are acting in a capacity that is directly related to, or in
   connection with, official Government activities. Travel and transportation
   allowances authorized for these persons are the same as those ordinarily
   authorized for civilian employees in connection with TDY.
   Local Travel: Travel conducted or expenses incurred while conducting official
   business within an area local to the employee’s permanent duty station.

   Medical: Travel to a medical facility or reimbursable expenses incurred by
   uniformed members to obtain required physical examinations or medical
   treatment.



                                      42
Navy Reserve Order Writing System: An automated information system used
by Naval Reservists to create orders (authorizations) for TDY, annual training,
active duty training, and inactive duty training.

Permanent Duty Travel: Travel by a member and dependents or expenses
incurred because of a change in assignment, detail, or transfer of an employee to a
different permanent duty station under an approved authorization that does not
specify the duty as temporary, provide for further assignment to a new permanent
duty station, or direct return to the old permanent duty station.

Prisoner Escort: Movement of a prisoner, including the official escorting a
prisoner, who is ordered from one site to another for disciplinary action.

Return on Investment: Present value of quantifiable cost savings divided by the
present value of the DTS investment.

Reserve or Guard Travel: Authorized travel conducted by a member of
Reserves or National Guard, including routine TDY, special mission travel, being
called to active duty, and training while on inactive duty.

Routine (Business) TDY: Official travel by a member from an assigned duty
station to perform duties for a limited period of time at one or more places away
from the member’s permanent duty station. General types of routine TDY
include conducting a site visit; attending a conference, meeting, or training;
presenting a speech; and performing other assigned duties away from the
member’s duty station.

Special Interest Initiative: A program that did not meet established
requirements of an Acquisition Category IAM program, but was nonetheless of
special interest to Congress, the DoD Chief Information Officer, or the
Department because of the program’s technological complexity, its status as a
joint program, or its criticality to achieving a specific capability.

System Change Request: A request for a change in the system or software that
may enhance functionality, be a design change, or improve operation processes,
or any change that is not judged to correct a defect but will require some analysis
and development work before it can be implemented.

System Operation Costs: Costs to operate and maintain DTS.

Voucher Computation Costs: Costs associated with budget and finance
personnel computing a TDY voucher claim.

Voucher Pay Costs: Costs associated with budget and finance personnel settling
(disbursing a payment) a TDY voucher claim.

Voucher Process and Compute Costs: Service and Defense agency costs, based
on the number of vouchers processed during a given fiscal year, associated with
the TDY voucher process function. This cost includes Service and Defense
agency personnel costs for time spent performing this function and the DFAS
cumulative fees for computing and disbursing, or only disbursing a voucher.

                                    43
Appendix H. History of the Defense Travel
            System
   In January 1995, the DoD Task Force to Reengineer Travel issued the “Report of
   the Department of Defense Task Force to Reengineer Travel,” which addressed
   three principal causes for the inefficient DoD travel system: travel policies and
   programs were focused on compliance with rigid rules rather than mission
   performance, travel practices did not keep pace with travel management
   improvements implemented by industry, and the travel system was not integrated.

   On December 13, 1995, the Under Secretary of Defense for Acquisition
   Technology, and Logistics and the Under Secretary of Defense
   (Comptroller)/Chief Financial Officer issued a memorandum, “Reengineering
   Travel Initiative,” establishing the PMO. The memorandum directed the DTS
   PMO to report through the Under Secretary of Defense (Comptroller)/Chief
   Financial Officer to the Under Secretary of Defense for Acquisition, Technology,
   and Logistics.
   DTS Program Management. The DTS PMO managed the Program as a special
   interest initiative from the Program’s inception in December 1995 until May 28,
   2002. During this time, the Defense Finance and Accounting Service was the
   functional proponent for the System, with oversight provided jointly by the Under
   Secretaries of Defense (Comptroller)/Chief Financial Officer and Acquisition,
   Technology, and Logistics. On May 28, 2002, the Assistant Secretary of Defense
   for Networks and Information Integration issued a memorandum, “Designation of
   Defense Travel System as a Major Automated Information Systems Acquisition
   Category IAM Program” officially designating DTS as an Acquisition Category
   IAM program. On October 20, 2003, the Assistant Secretary of Defense for
   Networks and Information Integration approved the Program to proceed into the
   Production and Deployment phase of the acquisition lifecycle during the
   Milestone C Decision review. According to the Program Director, DTS PMO,
   shortly after this review, key proponents and DoD management officials
   responsible for oversight of the DTS Program retired or left the Department, thus
   leaving a void in Program management.

   Recent Defense Travel Management Initiatives. In 2004, the Deputy Secretary
   of Defense issued MID 921 directing the Under Secretary of Defense for
   Personnel and Readiness to become the functional proponent for travel
   management, and to consolidate, streamline, and centrally manage commercial
   travel policy. The Under Secretary established the DTMO on February 5, 2006,
   with primary responsibility for managing the Department’s commercial travel
   program. Subsequent to the issuance of MID 921, the Acting Deputy Secretary of
   Defense issued a memorandum on October 7, 2005, “Establishment of the
   Defense Business Transformation Agency (BTA),” to advance Defense-wide
   business transformation in the areas of business process reengineering, core
   business mission activities and investment review board matters. DTS was
   included in the list of systems transferred to the Business Transformation Agency.


                                      44
Appendix I. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
Assistant Secretary of Defense for Networks and Information Integration
Director, Program Analysis and Evaluation

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Naval Inspector General
Auditor General, Department of the Navy
Deputy Naval Inspector General for Marine Corps Matters, Inspector General of the
  Marine Corps

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
Inspector General, Defense Information Systems Agency
Director, Defense Logistics Agency
Director, Defense Travel Management Office
Director, Business Transformation Agency

Non-Defense Federal Organization
Office of Management and Budget
Government Accountability Office



                                         45
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
Senate Permanent Subcommittee on Investigations, Committee on Homeland Security
  and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                       46
Program Analysis and Evaluation Comments




                    47
Defense Finance and Accounting Service
Comments




                      48
Team Members
The Defense Financial Auditing Service, Department of Defense Office of
Inspector General prepared this report. Personnel of the Office of Inspector
General of the Department of Defense who contributed to the report are listed
below.

Paul J. Granetto
Patricia A. Marsh
Michael Perkins
Kenneth H. Stavenjord
Frank C. Sonsini
Sean J. Keaney
Lusk F. Penn
Dharam V. Jain
Chandra P. Sankhla
Lieutenant Colonel Paul Goodwin
Frank R. Niranjan
Mary A. Hoover
Travis R. Schenck
James E. Miniter
Mark A. Heim
Carolyn J. Davis
Yolanda D. Bailey
Julio C. Gonzalez
Nicholas Drotar, Jr.
Steven L. Kohne
Gregory A. Crawford
Lynette A. Alicea
Alberto J. Calimano-Colon
Catherine Bird
